United States Department of Agriculture
Office of Inspector General




Review of Management
Controls for the Child and
Adult Care Food Program




                                          Audit Report 27601-0012-SF
                                          November 2011
                         United States Department of Agriculture
                                Office of Inspector General
                                 Washington, D.C. 20250




DATE:          November 18, 2011

AUDIT
NUMBER:        27601-0012-SF

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Acting Director
               Office of Internal Controls
                Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit


SUBJECT:       Review of Management Controls for the Child and Adult Care Food Program


This report presents the results of the subject review. Your written response to the official
draft is included at the end of this report. Excerpts of your September 29, 2011, response and
the Office of Inspector General’s position are incorporated into the applicable sections of the
report.

Based on your response, we have reached management decision on all of the report’s
recommendations. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer. Also, please note that
Departmental Regulation 1720-1 requires final action to be completed within 1 year of the
date of management decision to preclude being listed in the Department’s annual
Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during
our audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................4
Background...............................................................................................................4
Objectives ..................................................................................................................5
Section 1: Financial Integrity.................................................................................6
   Finding 1: State Agencies Should Verify Bank Account Transactions of
   Sponsors’ Spending ..............................................................................................6
         Recommendation 1 ......................................................................................10
         Recommendation 2 ......................................................................................10
         Recommendation 3 ......................................................................................11
         Recommendation 4 ......................................................................................11
         Recommendation 5 ......................................................................................12
Section 2: Program Integrity ...............................................................................13
   Finding 2: Oversight Mechanisms to Ensure Program Integrity Need
   Improvement .......................................................................................................13
         Recommendation 6 ......................................................................................15
         Recommendation 7 ......................................................................................16
         Recommendation 8 ......................................................................................16
   Finding 3: FNS Can Improve the Effectiveness of the National Disqualified
   List........................................................................................................................17
         Recommendation 9 ......................................................................................20
         Recommendation 10 ....................................................................................20
         Recommendation 11 ....................................................................................20
         Recommendation 12 ....................................................................................21
         Recommendation 13 ....................................................................................21
         Recommendation 14 ....................................................................................22
         Recommendation 15 ....................................................................................22
Scope and Methodology.........................................................................................23
Abbreviations .........................................................................................................24
Exhibit A: Summary of Monetary Results ..........................................................25
Exhibit B: Sites Visited ..........................................................................................26
Exhibit C: Summary of Questioned Costs for Sponsor A .................................27
Exhibit D: Summary of Questioned Costs for Sponsor B ..................................28
Exhibit E: Sponsor A’s Overstated Meal Claims ...............................................29
Agency’s Response .................................................................................................30
Review of Management Controls for the Child and Adult Care Food
Program

Executive Summary

In 1999, we audited the Food and Nutrition Service’s (FNS) Child and Adult Care Food Program
(CACFP), which provides funding to help ensure that children and adults in day care receive
nutritious meals.1 At the time, CACFP was “highly vulnerable to abuse,” as evidenced by the
cases we found of sponsors enriching themselves at the program’s expense (sponsors are
non-profit organizations that administer the program at the local level). We recommended that
FNS improve control of the program through “aggressive, clear, and consistent guidance and
oversight.” FNS made some immediate improvements at the time, and planned to fully
implement improved controls by October 1, 2005. In this follow-up audit, nothing came to our
attention to indicate that, except in two cases, the controls implemented by FNS in response to
our prior recommendations were not operating as prescribed.2 Below, we summarize
opportunities for FNS to address the remaining two: preventing conflicts of interest in sponsors’
governing boards and identifying program participants who claim reimbursement for meals they
did not serve (overclaiming). With 3.3 million people receiving CACFP meals each day at a cost
of $2.5 billion in fiscal year (FY) 2010, improving these controls can significantly strengthen the
program.

During our audit, potential program abuse by two sponsors came to our attention, so we
expanded our review to examine how they were using their CACFP funds. In total, we
determined that they had spent nearly $2.5 million contrary to program rules. The sponsors’
misuse of CACFP funds varied from spending over $10,000 to put on a car show to cashing a
$110,000 check which the director claimed she used to pay personal taxes.

We concluded that financial reviews by State agencies (which administer the program for FNS)
could be improved. The State reviews verified support for sponsors’ representation of their
expenses for a sample month, which meant that if sponsors provided sufficient paperwork (e.g.,
receipts) to support the reported expenses, reviewers were unlikely to spot other suspicious
transactions. In contrast, we reviewed all our sampled sponsors’ expenditures for the review
periods, such as by examining their CACFP bank statements or accounting records. By asking
the sponsors to provide documents that supported bank transactions for a specified period, we
identified significant unallowable expenditures by sponsors.

In following up on our prior recommendations, we determined that the guidance FNS put in
place to prevent conflicts of interest and overclaiming was not specific enough to be effective.
We also found that some entries in FNS’ national list of disqualified CACFP participants were



1
  Food and Nutrition Service, Child and Adult Care Food Program, National Report on Program Abuses (Audit
Report 27601-0007-SF, dated August 1999).
2
  The report included 23 recommendations and FNS revised program controls in response to 15 of the 23
recommendations. The remaining 8 recommendations neither required nor resulted in revised program controls.


                                                                     AUDIT REPORT 27601-0012-SF               1
inaccessible and incomplete. The examples below illustrate how FNS’ actions after the initial
audit did not go far enough to prevent certain problems.

        Conflict of Interest

        In response to our concern about family members or staff constituting a majority of a
        sponsor’s governing board, FNS added a general statement to CACFP regulations
        requiring each sponsor to document that its board of directors has “adequate oversight” of
        the program. This language does not address the situations we found, such as the voting
        majority of one sponsor’s board consisting of members who were also paid employees
        (the president or a vice-president) or family.

        As board members, these employees approved policies affecting their own compensation,
        including establishing a process by which the employees effectively determined each
        other’s pay. As a result, independent oversight to prevent abuses was lacking. For
        example, the sponsor’s four principal employees received bonuses of 18 to 30 percent of
        pay in 2008, far in excess of the established 5 percent maximum. The sponsors’
        personnel practices also raised conflict-of-interest concerns by appearing to favor board
        members and family (e.g., paying their health care costs while other staff paid their own,
        and contracting with a family member without competitive bidding).

        FNS’ Management Improvement Guidance specifically addresses conflicts of interest,
        suggesting that sponsors’ boards be “composed of a majority of members of the
        community who are not financially interested in its activities, or related to its personnel
        or to each other.”3 However, since the management guidance is optional, State agencies
        and sponsors were not required to follow it. Regulations only require that sponsors
        demonstrate that boards exercise “adequate oversight” of the program.4 FNS expressed
        concerns that it may lack the authority to impose requirements relating to the composition
        of sponsor boards of directors and that the requirements might conflict with States’
        authorities to set such requirements. However, the agency did not provide specific
        information or documentation to substantiate these concerns.5

        Overclaiming

        In response to our recommendation for detecting overclaims, FNS required sponsor
        reviews to include a reconciliation of a provider’s attendance and enrollment records to
        its meal claims for a 5-day period prior to the day of the visit, and comparison of the
        records for the prior days to enrollment and attendance on the day of the visit. Any
        discrepancies are to be resolved, as they can be indicators of inflated meal counts and
        potential overclaiming.




3
  FNS Management Improvement Guidance (Standards for Sponsors of Centers), section 1.1, dated 1997.
4
  7 CFR 226.6 (b)(18)(iii)(A), dated January 1, 2008.
5
  FNS included a definition of “independent governing board of directors” in a CACFP integrity final rule issued on
June 13, 2011, but the rule does not specifically address the concern discussed herein.

2     AUDIT REPORT 27601-0012-SF
           We found that State agency procedures for conducting the reconciliations did not
           consistently include all elements of the review. FNS should address this by providing
           more specific guidance detailing how the reconciliations should be conducted (i.e.,
           identifying the specific data elements – meal counts, numbers of children in attendance,
           etc. – to be compared). FNS should also establish a threshold defining when a
           discrepancy rises to the level that it should be investigated (e.g., attendance was about
           half of what would be expected). Although FNS did recommend that State agencies
           establish directions for deciding “when a provider error rises to the level of a serious
           deficiency,” this was not required.6 While our review identified numerous significant
           variations between current- and prior-day attendance, we found that sponsors did not
           investigate or resolve these discrepancies. For example, attendance recorded at eight
           California day care homes was 40-percent or more higher on the prior days than on the
           day the reviewer was there. Six New York day care homes also recorded significantly
           higher attendance on the days before the reviewer’s visit than on the day of the visit (for
           example, three on the visit day compared to six on the prior days). The reviewers in
           these cases did not reconcile the discrepancies.

Through specific and clear requirements, along with improved financial reviews, FNS can
further strengthen its management control of previously identified CACFP weaknesses.

Recommendation Summary
We recommend that FNS, in consultation with OIG-Investigations, recoup $2.5 million for the
two sponsors’ unallowable expenditures and instruct the State agencies to ensure the sponsors
have not misused other CACFP funds. FNS should also require that State agencies improve their
financial reviews of sponsors’ use of CACFP funds. Last, we recommend that the agency
specify requirements for preventing conflicts of interest and investigating meal claim
discrepancies.

Agency Response
In its written response, dated September 30, 2011, FNS concurred with the reported findings and
recommendations. The complete written response is included at the end of the report.

OIG Position
We accept FNS’ management decision for all of the recommendations.




6
    Federal Register, Volume 69, Number 169, Page 53518, dated September 1, 2004.


                                                                      AUDIT REPORT 27601-0012-SF         3
Background and Objectives

Background
Under the U.S. Department of Agriculture, FNS’ CACFP helps improve nutrition for children
and adults in day care by reimbursing institutions for the cost of meals meeting certain
nutritional standards. Each day, more than 3.2 million children and 112,000 adults receive
nutritious meals and snacks through the program,7 at a cost of $2.5 billion in FY 2010.

The program is administered by FNS through its regional offices, State agencies, and institutions.
Each CACFP layer has oversight responsibilities to ensure the next complies with program
requirements.

      ·    FNS establishes the overall regulatory framework for the program and develops
           associated guidance. FNS reimbursements can be used to pay both meal costs (e.g., food,
           serving supplies, cooks’ salaries) and, to some extent, related administrative expenses
           (e.g., office supplies, reviewers’ salaries). Through its regional offices, FNS enters into
           agreements with State agencies to administer the program. Regional offices approve
           State agencies’ annual plans and budgets, and perform periodic management evaluation
           reviews of State agencies to ensure they comply with applicable regulations.

      ·    The program is administered in each State by a State agency. These agencies enter into
           agreements with and provide supervisory and technical help to institutions. State
           agencies are required to: (1) review and approve institutions’ budgets and management
           plans, (2) establish reimbursement procedures, (3) regularly review institutions to ensure
           they follow CACFP rules, and (4) ensure they correct deficiencies.

      ·    Institutions include non-profit sponsoring organizations (sponsors) and independent
           centers (centers that contract directly with a State agency rather than through a sponsor).
           Institutions enter into agreements with the State agency and accept full responsibility for
           their meal service complying with all program requirements.

Meal service sites include both independent centers and facilities. Facilities operate under the
auspices of a sponsor and include both day care homes and sponsored centers. Sponsors can
administer the CACFP at multiple sites, but each site keeps its own records of attendance and
meals served.

The CACFP reimburses administrative costs for day care home sponsors based on a fixed
amount per home sponsored and center sponsors are allowed to use up to 15 percent of meal
reimbursements for administrative costs. In the case of a center not owned by the sponsor
(independent center), the sponsor is allowed to retain up to 15 percent of meal reimbursements
from the amount due to the center (not to exceed the sponsor’s actual administrative costs).



7
    Website http://www.fns.usda.gov/cnd/care/, accessed May 25, 2010.

4         AUDIT REPORT 27601-0012-SF
We undertook this audit to follow up on FNS’ implementation of the recommendations we made
in our 1999 nationwide audit report on CACFP.8 The prior review included audits and
investigations of 49 CACFP sponsors and revealed the program was highly vulnerable to abuse.
In response to our recommendations, FNS proposed program changes designed to strengthen
CACFP operations and monitoring at the State agency and sponsor levels.

Objectives
Our objective was to evaluate the effectiveness of corrective actions FNS implemented in
response to recommendations we made in our 1999 nationwide CACFP report. Due to
information obtained during the audit, we expanded our review of two of the six sponsors in our
sample to perform a detailed analysis of the propriety of their use of CACFP funds.




8
 Food and Nutrition Service, Child and Adult Care Food Program, National Report on Program Abuses (Audit
Report 27601-0007-SF, dated August 1999).


                                                                    AUDIT REPORT 27601-0012-SF             5
Section 1: Financial Integrity

Finding 1: State Agencies Should Verify Bank Account Transactions of
Sponsors’ Spending
We audited six CACFP sponsors and determined that two had used nearly $2.5 million in
program funds to pay for costs not allowed by program rules. The sponsors’ violations varied
from using over $10,000 in program funds to put on a car show to cashing a $110,000 check
which the sponsor claimed she used to pay personal taxes. Their misuse of funds points to the
sponsors’ systemic program abuse. We also concluded that State agencies’ financial reviews
could be improved. Specifically, the reviews focused on matching sponsors’ representation of
their expenses for a sample month to supporting documents (e.g., receipts). This meant that if
the supporting documents were valid, reviewers were unlikely to spot other suspicious
transactions. Without strengthening this oversight control, FNS is at increased risk of not
identifying and recovering misused CACFP funds.

Regulations require State agencies to approve sponsors’ budgets and assess sponsors’
compliance with program requirements, including assuring that program funds are used only for
allowable expenses.9 Neither the agencies’ agreements with FNS nor their agreements with
sponsors specify how State agency reviews should assess sponsors’ compliance with CACFP
financial rules. Beyond FNS general regulatory direction, State agencies are largely left to
devise their own financial review procedures.

Two of the three State agencies we audited developed checklists and procedures for use in
assessing sponsors’ compliance with various CACFP requirements such as nutrition, eligibility,
meal claims, etc. We focused on the financial elements of these procedures, which generally
asked the reviewer to examine documentation of the sponsors’ expenses for a selected month to
ensure that (1) expenses were adequately supported, (2) costs charged were allowable, (3)
amounts paid were consistent with the approved budget, and (4) for sponsors of child care
centers, administrative costs charged, if any, did not exceed 15 percent of reimbursement.

This process, however, does not require sponsors to fully account for their expenditure of
CACFP funds. A sponsor may use funds for both allowable and unallowable expenditures, but
provide a reviewer with receipts for just the allowable costs. If the amount of the allowable
expenditures seems reasonable (i.e., approximating the annual budget divided by 12), and the
reviewer only confirms support for the receipts provided, the reviewer may never become aware
of the unallowable expenditures.

In contrast, our review started from records that fully identified the sponsors’ expenditure of
CACFP funds, such as bank statements or check registers. By reviewing documentation
supporting CACFP bank account transactions for a specified period, we identified nearly
$2.5 million in unallowable costs. We provide examples of how the sponsors we reviewed
misused program funds in the details below (see also Exhibits C and D).

9
    7 Code of Federal Regulations (CFR) 226.7 (g), dated January 1, 2008.

6        AUDIT REPORT 27601-0012-SF
State agencies’ ability to monitor sponsors’ use of program funds is limited. Although sponsors
must submit annual budgets – detailing the amounts of program funds they expect to expend by
cost category – to their State agency for approval, sponsors are not required to report, after the
fact, how much they actually did spend. Requiring periodic (preferably monthly, but not less
than annually) reporting of actual expenditures would improve sponsor accountability, and
provide State agencies a useful tool for identifying potential misspending. State agencies could
then reconcile reported expenditures to program payments to ensure funds are fully accounted
for, and use the reported actual expenditures as the basis for selecting a sample of expenditures
for validation. To facilitate reconciliation, the report should use the same cost categories as are
used on the sponsor’s approved annual budget.

Sponsor A

For the period January 2008 through June 2009, we determined that sponsor A under the New
York State agency misused about $2 million in CACFP funds, in addition to claiming
reimbursement for meals it had not served. Examples of questioned costs follow; see Exhibit C
for a complete listing.

Although prohibited by regulations, sponsor A’s director used about $1.8 million in CACFP
funds for non-program purposes.10 Approximately $1.5 million went to pay expenses for the
director’s private corporation—a for-profit school venture. For example, she paid $545,683 to a
business owned by her               and                     to                          in her
for-profit schools. She also used $723,000 in program funds to help her corporation through
what she described as financial hardship. Other misuses of funds included the director
withdrawing $110,000 (see figure 1) and depositing it into her own personal account to pay her
income taxes.

                                 Figure 1: Funds taken from CACFP account




10
     7 CFR 226.7 (b), dated January 1, 2008.


                                                                AUDIT REPORT 27601-0012-SF        7
When we discussed these issues with the director, she said that she knew the transactions
violated CACFP rules but felt that since she intended to pay them back there was no harm. In
August 2009, she acknowledged that she had used approximately $1 million in program funds
over a 10-month period but had not yet repaid over $656,000. We were unable to confirm her
figures.

Sponsor A also paid over $250,000 to a family-owned company for food and supplies without
required approval. The purchases were for program purposes, but sponsors have to obtain their
State agency’s prior written approval for “less-than-arms-length” transactions, such as those
involving immediate family.11

According to the Office of Management and Budget (OMB), allowable costs under an award
(e.g., sponsors’ CACFP reimbursement) should be reasonable and necessary to carry out the
program, applying ordinary prudence.12 By this definition, we determined that $20,488 paid to
host a party was unnecessary (the party was for both children enrolled in CACFP and those in
the director’s for-profit schools).

We also determined that sponsor A had overclaimed meals. To determine if reimbursements that
sponsor A claimed matched the meals it served, we compared claims submitted to the State
agency for January and March 2009 with onsite meal service records. The sponsor’s
reimbursement requests were on average 16 percent higher—about 22,000 more meals in
total—than site records showed. For example, in January the sponsor claimed that it had served
11,484 meals at one site when only 6,612 were recorded: a 74 percent difference. (See Exhibit
E for our full comparison.)

In discussing the discrepancies, sponsor A explained that she instructed her staff to inflate meal
counts because she served four meals per day as she felt the children needed an extra meal since
they were onsite all day. While nothing prevents sponsors from serving additional meals if they
choose, CACFP only reimburses for three. In addition, some sponsor staff stated that they
served meals to teachers and parents that were included in the meal counts, which is against
program rules.13

Sponsor B

From January 2008 to February 2009, we determined that sponsor B misused nearly $457,000 in
program funds. Examples of questioned costs follow; see Exhibit D for a complete listing.

Sponsor B used $321,057 in program funds for unallowable costs, including costs that were
personal in nature or otherwise unrelated to the CACFP. Some of the unallowable costs related
to two side businesses operated by the sponsor, a          shop and a                   (the

11
   FNS Instruction No.796-2, revision 3, sections VIII.E & F, and exhibit A, section T, dated May 2001.
12
   OMB Circular No. A-122, Cost Principles for Non-Profit Organizations, as incorporated into 2 CFR 230,
attachment A, sections A-2 & A-3. See also FNS Instruction No. 796-2, revision 3, section VII.A.3, dated May
2001.
13
   Public Law (P.L.) 97-35, dated August 13, 1981.


8     AUDIT REPORT 27601-0012-SF
sponsor expended $21,294 to operate the shop and $26,506 to operate the        , plus an
additional $80,266 to rent space for these businesses). We also found the sponsor used $84,555
in CACFP funds for personal expenses, including a payment of $10,547 on a personal loan, and
spent various amounts for golfing, clothes, and cruises.

Sponsor B also expended $83,759 in program funds to pay for costs that are specifically
prohibited by FNS’ financial management instructions; specifically, $64,288 to improve rented
property, $15,050 to retain an attorney, $3,908 to pay tax penalties, and $513 in bank fees.

Sponsor B also spent program funds without obtaining required prior approval from the Texas
State agency. The sponsor paid $32,857 to a         of one of the sponsor’s        for
                                    . As discussed above, such “less-than-arms-length”
transactions involving immediate family require State agencies’ written approval. Additionally,
the sponsor expended $690 for bank stop-payment fees.14

We concluded that over $55,093 of sponsor B’s costs were neither reasonable nor necessary to
operate the program, including paying for promotional activities ($25,860), an employee retreat
($11,040), non-travel related meals ($9,232), and other miscellaneous costs ($8,961).

We also questioned $47,244 in various costs that sponsor B could not support, such as a number
of payments to hotels and restaurants. FNS requires that sponsors maintain documents adequate
to demonstrate that costs are incurred in compliance with program requirements.15

Sponsor C

In addition to the two sponsors discussed above, we also questioned a third sponsor’s use of
funds. Sponsor C leased a car with CACFP funds in September 2006—which is allowed—but
    did not keep the mileage log required to split costs between personal and program use.16 The
sponsor’s director acknowledged using the car to commute to work (considered personal use);
accordingly, we could not determine how much of the $20,590 in lease costs (as of April 2009)
were personal costs for which      should be responsible.

In June 2007, the New York State agency’s review identified some problems with sponsor A—
such as its accounting software’s inability “to show exactly where the CACFP funds have been
used” and commingled funds. The sponsor, though, showed $176,910 in support (receipts, etc.)
for the selected month’s reimbursements of $177,863 (March 2007), and set up a separate
CACFP bank account as the agency’s review recommended.

In August 2008—2 months before we started our fieldwork—the Texas State agency reviewed
sponsor B and found that it had complied in performing its financial responsibilities.



14
   FNS Instruction No. 796-2, revision 3, sections VIII.I.17 b (2), VIII.I.24 b (1), VIII.I.18, and VIII.I.22 b (1), dated
May 2001.
15
   FNS Instruction No. 796-2, revision 3, section VII.A.3 j, dated May 2001.
16
   FNS Instruction No. 796-2, revision 3, section VIII.I.39 c, dated May 2001


                                                                            AUDIT REPORT 27601-0012-SF                  9
While our review months did not coincide with the State agencies’, we concluded that their
methodologies might not result in their identifying some of the more egregious examples we
uncovered. For example, verifying sponsor A’s receipts to its CACFP bank account—even if
funds were not commingled—would not have detected the $110,000 check since there was no
corresponding receipt or ledger entry. However, since both legitimate and illegitimate expenses
involve moving money from sponsors’ CACFP bank accounts, we recommend FNS require State
agencies to start financial reviews from financial records, such as monthly bank account
statements, and validate all transactions for a selected period with documented support.

The need for improved financial review controls does not excuse improper conduct by sponsors,
and we have accordingly referred sponsors A and B to OIG’s Office of Investigations. We also
discussed our findings with the respective FNS regional offices and State agencies, which
concurred with our conclusions. During the course of our audit, we issued a management alert to
FNS in July 2009. This alerted FNS to sponsor B’s unallowable costs and advised the State
agency to review its sponsor compliance program and take corrective action, including
recovering misused funds and having the sponsor terminated from the program if appropriate.

Recommendation 1
Require State agencies, during reviews, to verify a selected month (or more as warranted) of a
sponsor’s CACFP bank account activity against documents adequate to support that the
transactions meet program requirements.

Agency Response
FNS concurs with this recommendation. A review of bank statements was a standard part of the
Child Care Assessment Project (CCAP) data collection and revealed a number of
“questionable costs” that would otherwise have gone unnoticed if the CCAP data collectors had
only looked at receipts. Procedures for conducting “bank statement verifications” will be
addressed in guidance by December 2011.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 2

Instruct State agencies to require center sponsors to report, no less often than annually, their
actual expenditures of program funds and the amount of meal reimbursement funds retained
from centers (if any) for administrative costs.




10     AUDIT REPORT 27601-0012-SF
Agency Response

FNS concurs with this recommendation. Although FNS evaluates the State agency’s written policies
or procedures for tracking sponsors’ administrative expenses on a year-to-date basis, FNS will
propose a report of aggregate year-to-date administrative expenses for center sponsors, no less
frequently than annually. This report will be addressed in guidance.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 3

Consult with OIG-Investigations to determine the appropriate action to be taken to recoup the
$2,029,691 in program funds misused by sponsor A. Require the State agency to ensure sponsor
A has accounted for all program funds and has recovered any that are not accounted for or were
spent improperly.

Agency Response
FNS concurs with this recommendation and agrees with recovering any misused funds as
appropriate according to federal law and CACFP regulations. FNS will confer with OIG prior to
determining the appropriate action to take.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 4

Consult with OIG-Investigations to determine the appropriate action to be taken to recoup the
$456,942 in program funds misused by sponsor B.

Agency Response
FNS concurs with this recommendation. FNS agrees with recovering any misused funds as
appropriate according to federal law and CACFP regulations. FNS will confer with OIG prior to
determining the appropriate action to take.

OIG Position
We accept FNS’ management decision on this recommendation.




                                                           AUDIT REPORT 27601-0012-SF           11
Recommendation 5

Instruct the Texas State agency to determine the portion of vehicle costs charged by sponsor C to
the program (including lease, fuel, insurance, etc.) that are non-program related, and collect this
amount back from the State agency.

Agency Response

FNS concurs with this recommendation. FNS will direct the Texas State agency to recover any
unallowable costs as appropriate according to federal law and CACFP regulations.

OIG Position

We accept FNS’ management decision on this recommendation.




12     AUDIT REPORT 27601-0012-SF
Section 2: Program Integrity
Finding 2: Oversight Mechanisms to Ensure Program Integrity Need
Improvement
FNS’ corrective actions for two of the recommendations in our 1999 CACFP report were not
adequate to prevent conflicts of interest or detect overclaims. This occurred because the
guidance FNS implemented for these recommendations was not specific enough to be effective.
In response to our conflict-of-interest concern about family members or a sponsor’s staff
constituting a majority of its governing board, the agency added a general statement to CACFP
regulations requiring each sponsor to document that its board of directors has “adequate
oversight” of the program. FNS also implemented a requirement that States and sponsors
reconcile meal and attendance records during on-site reviews.

Without targeting corrective actions more precisely to address previously identified oversight
weaknesses, the integrity of CACFP continues to be at risk.

In our 1999 report, we recommended that FNS provide guidance to sponsors about their
governing boards’ independence and composition. In general, we were concerned that boards
whose majority had conflicted interests (e.g., family members or sponsor employees) ran a
higher risk of not exercising proper oversight. Since board members monitor and approve
sponsor spending and operations, keeping such related parties from comprising a board majority
helps ensure program integrity.

FNS initially responded by issuing Management Improvement Guidance which suggests that a
sponsor’s board should be “composed of a majority of members of the community who are not
financially interested in its activities, or related to its personnel or to each other; [and] does not
vote on decisions relating to their own compensation (or for a related party) and is otherwise
independent and accountable.”17 While the language addressed our concerns, we concluded use
of the guidance was optional, so neither sponsors nor State agencies were required to follow its
provisions.18 The agency also developed program regulations which required sponsors to
document that their boards provided “adequate oversight” of the program, but did not
specifically address the composition of sponsor boards.19 However, our current audit found that
the composition of sponsors’ boards continues to raise conflict-of-interest concerns, such as
board members voting on their own compensation.

Between 2007 and 2009, sponsor B’s most highly-paid employees, or persons closely related to
them, made up a majority of the sponsor’s board. As board members, these employees voted on
personnel policies affecting their own compensation (base pay, raises, and bonuses). With paid
employees (or their close relations) making up a majority of the board, independent board


17
   FNS’ Management Improvement Guidance, Standards for Sponsors of Centers, section 1.1, dated 1997. FNS’
position is that the guidance reflects requirements, but based on our audit work, we do not concur.
18
   OIG Audit Report 27601-0007-SF, finding 2, recommendation 2c, “OIG Position,” dated August 1999.
19
   7 CFR 226.6 (b)(18)(iii)(A), dated January 1, 2008. FNS was nonresponsive to our request for an explanation of
why the Management Improvement Guidance requirements were not incorporated into the regulations.


                                                                      AUDIT REPORT 27601-0012-SF               13
oversight was not possible. To illustrate the result, the president (the board chair) approved
bonuses and pay increases for the vice-presidents (two of whom were board members, including
the president’s spouse), and the board as a whole voted on the president’s compensation;
effectively, the president determined the pay of board members who were responsible for setting
his pay, and vice versa. To further illustrate, the four most highly-paid employees (the four
officers) received bonuses in 2008 ranging from over $14,000 to over $34,000 (18 to 30 percent
of the employee’s pay), which significantly exceeded the amount (up to 5 percent of pay) the
board had itself approved at its previous annual meeting.

We found that sponsor B employed many of the senior staff’s family members (parents and
children) and that personnel practices appeared to favor them. For example, the sponsor paid
some health care costs for senior staff or family members that other employees had to pay
themselves. The sponsor also contracted with a                            for
without soliciting competitive bids beforehand, or drawing up a contract for the work to be
performed. In addition, the        of the sponsor’s          was hired as a         but was paid
twice as much as other employees doing the same job. We did not analyze the decisions of
sponsor B’s board to determine if the decisions were warranted. However, these conditions do
give rise to the same independence and oversight concerns that led us in 1999 to recommend that
FNS exercise tighter control over board composition.

We concluded that FNS needs to require sponsors to sign an annual disclosure of potential
conflicts of interest, to identify relationships between officers, board members, and employees,
or any dealings with “less-than-arm’s-length” entities. The disclosure form should detail the
potential ramifications of a failure to disclose such relationships. This would help ensure that
sponsors are aware of the restrictions on dealing with related parties and assist State agencies to
better identify potential conflicts of interest when performing periodic sponsor reviews. We are
also recommending that FNS require sponsor boards of directors to be comprised primarily of
persons without a financial interest in the sponsor’s activities. FNS expressed concerns that
doing so might conflict with States’ authorities to set such requirements, but did not provide
specific information or documentation to substantiate these concerns.20

Similarly, our 1999 report recommended that FNS improve oversight controls for sponsors’ meal
reimbursements by recommending that attendance and enrollment records at meal service sites
be reconciled with meal claims. In response, FNS revised regulations to require reviewers to
correlate attendance, enrollment, and meal count information for 5 consecutive days preceding
their visit, and then reconcile any discrepancies identified.21 Reviewers were also to compare the
prior day counts to the enrollment and attendance for the day of the visit and reconcile any
discrepancies. While some variation is to be expected (a child or two present on prior days may
be absent when the reviewer visits), significant discrepancies can signal serious problems, such
as providers inflating meal counts and the corresponding attendance records to cover program
abuse.



20
   FNS stated that it would provide a definition of “independent governing board of directors” in a future final rule,
but this had not been published at the time of the audit.
21
   7 CFR 226.16 (d)(4)(ii), dated January 1, 2008.

14      AUDIT REPORT 27601-0012-SF
We found that two State agencies’ procedures for implementing the regulation differed, and
neither fully implemented the regulation’s requirements (the third State agency, California,
issued no instructions to guide their reviewers).

     ·   The New York State agency required comparing attendance and meals for only the visit
         day.

     ·   The Texas State agency required determining a 5-day attendance-to-meal pattern, but not
         reconciling it to current attendance.

When FNS revised program regulations in 2004, it suggested (but did not require) that State
agencies provide guidance about when “provider error rises to the level of a serious
deficiency.”22 As a result, most of the reconciliation reviews we examined during the audit
neither identified nor resolved significant variations. For example, we reviewed a sample of 35
providers at a California sponsor, and found the sponsor had not noted any concerns in their 5-
day attendance-to-meal reconciliations. However, our analysis showed that 8 of the 35 providers
had 40-percent or more higher attendance on the days when the reviewer was not there than on
the day she was. One provider, for example, reported two children attending on the visit day, but
five the previous 5 days. Similarly, reconciliation reviews of 20 providers for a New York
sponsor concluded there were consistent meal count patterns even though we found that 6 of the
providers had significant variations (e.g., in one instance, three children were present when the
reviewer visited, but the provider recorded six attending the previous 5 days).

Overall, FNS has made significant strides in improving its management control over CACFP.
We concluded that the agency did not effectively implement 2 of the 23 recommendations in our
prior nationwide report, but by strengthening the mechanisms it has in place, FNS can improve
sponsors’ accountability.23

Recommendation 6
Require that a majority of a sponsor’s board be composed of members of the community who are
not financially interested in its activities, or related to its personnel or to each other; and that
board members recuse themselves from votes on decisions relating to their own compensation
and that of immediate family members and financially related parties.

Agency Response
FNS concurs with this recommendation. FNS agrees that the independence of sponsor boards is
important to the integrity of the Program. FNS’ Management Improvement Guidance currently


22
   Federal Register, Volume 69, Number 169, pages 53518 and 53545, dated September 1, 2004. FNS stated that it
was precluded from mandating such requirements by the Administrative Procedures Act, but is currently assessing
State agencies’ implementation of review requirements, and may propose strengthening review requirements based
on the results.
23
   The report included 23 recommendations and FNS revised program controls in response to 15 of the 23
recommendations. The remaining 8 recommendations neither required nor resulted in revised program controls.


                                                                    AUDIT REPORT 27601-0012-SF              15
requires sponsor boards to be composed of a majority of members of the community who are not
financially interested in its activities, or related to its personnel or to each other. Further, the
CACFP Integrity Rule [7 CFR Part 226.2], issued during the course of this audit (June 13, 2011)
adds a new definition of “independent governing board of directors” which requires the board to
meet regularly and to have the authority to hire and fire the institution’s executive director. In the
development of this final rule FNS conducted extensive research of States’ specific statutory
requirements regarding private nonprofit organizations’ governing boards of directors, and
determined that this definition of board independence is the best approach to providing State
agencies with more specific authority to assess the independence of sponsor boards.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 7

Require sponsors to sign an annual disclosure form of potential conflicts of interest, including
specific identification of any dealings with “less-than-arms-length” entities and any relationships
between officers, board members, and employees. Language in the disclosure form should
provide for appropriate remedies in the event a sponsor submits a false statement.

Agency Response
FNS concurs with this recommendation. FNS will require institutions to add the disclosure and
certification as an “annual submission” (refer to Healthy Hunger-Free Kids Act of 2010)
implementation memo CACFP-19-2011 on “CACFP Applications,” issued 4/8/11) included in a
proposed regulation. The proposed regulation will also specify that submission of a false
statement will be considered a serious deficiency subject to approved corrective action or
termination from participation in the program.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 8

Develop standardized procedures for conducting reconciliation reviews, which (1) clearly define
the records to be reconciled, (2) describe follow-up actions to be taken when discrepancies are
noted, and (3) describe appropriate corrective action to be taken for deficiencies that cannot be
reconciled or explained.




16     AUDIT REPORT 27601-0012-SF
Agency Response
FNS concurs with this recommendation. FNS will issue additional guidance to include standard
procedures for reconciliation reviews, specific effective corrective actions to identify and resolve
reconciliation issues, and policy clarification on the disallowance of ineligible meals. This
guidance will be issued following the analysis of the results of in-depth reviews conducted of
State agency CACFP operations conducted in FY2010 and FY2011, which assessed the degree
to which State agencies have effective policies and procedures in place for the proper
implementation of the five-day reconciliation requirement.

OIG Position
We accept FNS’ management decision on this recommendation.

Finding 3: FNS Can Improve the Effectiveness of the National Disqualified
List
The usefulness of FNS’ national list of disqualified participants is weakened by inaccessible and
incomplete data, and inconsistent application. In general, this occurred because FNS had not
made all critical information available to State agencies, and users were not consistently
following prescribed procedures nationwide. Additionally, the guidance provided by FNS could
be improved to help State agencies use the list most effectively. As a result, FNS has reduced
assurance that a State agency’s decision to disqualify a CACFP participant would be enforced
nationwide.

If institutions, such as sponsors, do not correct serious deficiencies—e.g., persistently
overclaiming meals—then State agencies are to terminate them and their “responsible principals”
and prohibit their further participation in the CACFP for 7 years (or until they take corrective
action).24 FNS maintains a list of those barred from participation, as reported by each State
agency, and distributes it to authorized State agency personnel to keep disqualified institutions or
individuals from setting up business in a new State to avoid the consequences of their CACFP
deficiencies in another. Regulations require State agencies to deny CACFP applications received
from any institution or individual on the national disqualified list.25

However, State agencies’ and sponsors’ inability to access some or all of the information on the
list may reduce its usefulness as a mechanism to control ineligible participation. In addition, we
found instances where information was missing from the list and there were wide differences in
how each State agency used the list. We discuss these issues below.



24
   As stated in 7 CFR 226.6 (c)(7)(v), dated January 1, 2008, Responsible principals (or individuals) refers to (1) an
institution’s principal, whether compensated or not, (2) any other individual employed by, or under contract with, an
institution or sponsored center, or (3) an uncompensated individual, who the State agency determines to be
responsible for an institution’s serious deficiency. See 7 CFR 226.2, dated January 1, 2003.
25
   7 CFR 226.6 (b)(1)(xii), dated January 1, 2008, is cited and applies to new applications. 7 CFR 226.6 (b)(2)(ii),
dated January 1, 2008, applies the same requirement to renewal applications.


                                                                        AUDIT REPORT 27601-0012-SF                17
          Inaccessible Information

          FNS requires State agencies to submit specified information about disqualified
          institutions and individuals, such as names, addresses, and dates of birth. FNS compiles
          this information into a national list and makes it available to State agencies each month.
          However, due to concerns about disclosing private information, FNS excludes dates of
          birth from the list viewable by authorized State agency personnel. Due to privacy
          concerns, FNS also does not provide sponsors access to the list, although it originally had
          intended to do so. This seriously hinders State agencies’ ability to identify matches.
          Names and addresses are of limited use, as an individual may have the same name as a
          different person, may use different forms of his or her name (i.e., legal name and
          nickname) in different places, or may change his or her name or address. If a State
          agency identifies a potential match, it submits the information to FNS for validation (FNS
          retains access to dates of birth). If FNS identifies a potential match, it will notify the
          State agency of the match for final verification.

          This circular process makes using the list to determine ineligibility less efficient because
          State agencies cannot themselves eliminate false matches, such as different people having
          the same names. FNS officials said that they withheld birth dates because the Privacy
          Act restricts distributing personal identifying information (e.g., social security
          numbers).26 The Act, though, does not specifically mention birth dates. FNS could not
          provide us the basis, such as an opinion from the Office of the General Counsel (OGC),
          for its determination that birth dates were covered by the Privacy Act.

          Incomplete Information

          In December 2007, FNS recognized that the national disqualified list contained
          inconsistent and incomplete information. In response, FNS issued guidance to
          standardize what State agencies should submit about disqualified participants, and how to
          do so.27 However, our analysis of the disqualified list FNS distributed in July 2010
          showed that while disqualified institutions only have about 1 percent incomplete entries
          for zip codes, addresses, etc., information was missing for disqualified individuals at
          much higher rates. For example, the list does not indicate when about 3 percent of the
          disqualified individuals were terminated from CACFP.

          More seriously, the listings for nearly 19 percent of the individuals did not show birth
          dates, which FNS requires State agencies to submit. As discussed above, these are
          critical in helping FNS identify false matches in cases where two people have the same
          (or similar) names. In general, these gaps may be mitigated by including edit checks for
          entries in the standardized reporting form FNS provides to State agencies—e.g., a
          spreadsheet that requires a complete address or draws attention to missing entries with
          highlighted call-out boxes.



26
     5 U.S.C. 552a; P.L. 93-579, dated December 31, 1974.
27
     CACFP Policy Memo No. 02-08, dated December 14, 2007.

18        AUDIT REPORT 27601-0012-SF
       Inconsistent Application

       Without detailed guidance from FNS, each of the State agencies we visited used the
       disqualified list differently.

           ·   In California, staff compare the names of sponsors and their senior officers to
               those on the disqualified list. The agency also runs the disqualified list through its
               database of participating providers, which can generate hundreds of field entry
               matches (names, addresses, zip codes, etc.). Staff then manually reviews the
               results for potential matches to send to FNS for verification.

           ·   In Texas, staff manually compares the names and addresses of new CACFP
               participants to the disqualified list. If the addresses are close (Texas also
               considers nearby cities) and the names match, the results are sent to FNS for
               verification. (Texas also distributes the list to sponsors through its State agency
               website—which runs counter to FNS’ policy—and expects the sponsors to review
               the list to ensure they are not working with disqualified facilities or individuals).

           ·   In New York, staff use their own list of those they have disqualified because it
               contains helpful information that the national list does not, such as birth dates.
               (FNS’ Privacy Act concerns derive from distributing birth dates nationally, not
               individual State agencies’ using the information from their own CACFP
               participants.) While more efficient, abandoning the national list leaves the agency
               vulnerable to disqualified individuals who move from State to State.

      These varying matching procedures may lead to inconsistently identifying disqualified
      participants. By using outside sources, for example, the New York State agency’s
      matching process will likely find a different set of disqualified participants than
      California’s, which relies on comparing database fields. Similarly, Texas’ consideration of
      cities near an address may identify a different set than New York, which relies strictly on
      addresses matching.

Many of these issues resulted from the manual nature of the current national disqualified list
process, which is prone to human error and delays. We believe these problems could be best
addressed by automating the national disqualified list. A properly developed automated system
could be broadly available to users at both the sponsor and State agency levels having a need to
verify the eligibility of program applicants. Data input by users at these levels (on newly-
disqualified persons and entities) would be available to system users in a more timely manner.
Controls in the system could ensure that data entered were complete, and edit checks could guard
against inaccuracies. The system could perform the verifications and provide immediate
feedback to users while at the same time safeguarding sensitive personal information.

We discussed these conditions with FNS National Office officials, and they concurred with our
conclusion that the national disqualified list was not functioning as intended. While our review
did not identify any disqualified participants on FNS’ July 2010 national disqualified list
participating in CACFP, we believe that the aggregate effect of the deficiencies discussed above
reduces FNS’ assurance that this will continue to be the case.

                                                             AUDIT REPORT 27601-0012-SF          19
Recommendation 9
Develop submission forms for State agencies with edit checks requiring entries to be complete.

Agency Response
A policy memo containing required National Disqualified List (NDL) submission forms was
issued in December 2007 to specifically address information required for placement on, or
removal from, the NDL. Although electronic edit checks are not able to be added to the current
form, they will be added when the system is revised to incorporate electronic data entry by State
agencies. FNS plans to release a web-based NDL database to State agencies by the end of FY
2012. In addition, FNS will issue a policy memo clarifying information required for placement
on or removal from the NDL in FY 2012.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 10
Obtain an opinion from OGC about whether birth dates can be distributed to State agencies as
part of the national disqualified list. If OGC determines they can, distribute the list with birth
dates.

Agency Response
FNS concurs with this recommendation. FNS will pursue obtaining an opinion from OGC about
whether or not birth dates (which are considered to be personally identifiable information) can be
distributed to State agencies as part of the NDL. If OGC determines it to be allowable, FNS will
enable State agency staff to access the list with birth dates included.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 11

Distribute specific and standardized requirements to State agencies about how to use the national
disqualified list (what data elements should be compared, when to consider a match to have
occurred, etc.).

Agency Response
FNS concurs with this recommendation. FNS will distribute additional guidance on how to use
the NDL to ensure that disqualified institutions and individuals are precluded from CACFP


20     AUDIT REPORT 27601-0012-SF
participation. FNS is currently updating a previous policy memo that will further clarify
information required for placement on or removal from the NDL to be issued in FY 2012.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 12
Require that program application materials and national disqualified list submittals include
(1) full legal names and (2) any names formerly used.

Agency Response
FNS concurs with this recommendation. FNS will include in the NDL guidance the requirement
that specifies NDL submittals include the full legal names and any names formerly used of all
involved principals.

OIG Position

We accept FNS’ management decision on this recommendation.

Recommendation 13

Develop and implement an automated system that includes the following features:
(1) availability to both State agency and sponsor personnel having a legitimate need for access to
the system, (2) timely availability of data in the system, (3) immediate feedback on results to
users, (4) controls to ensure the completeness and accuracy of data, and (5) the proper
safeguarding of personally identifiable information, in accordance with the Privacy Act and other
applicable requirements.

Agency Response
FNS concurs with this recommendation. As a long standing objective of FNS, the process to
redesign and web-enable the NDL database and allow for system edits is underway. This will
allow State agencies to access and enter data in a timely manner and the system edits will aid in
ensuring more complete and accurate data. State agencies will be able to directly submit data for
immediate verification of potential matches. Access will be made available to sponsoring
organizations as required. In addition, FNS will develop standard operating procedures to
manage the NDL at the federal level upon implementation of the web-based NDL system. The
web-based NDL system is scheduled to be released during the fourth quarter of 2012.

OIG Position
We accept FNS’ management decision on this recommendation.


                                                            AUDIT REPORT 27601-0012-SF         21
Recommendation 14

Instruct the New York State agency to use the national list to identify disqualified participants.

Agency Response
FNS concurs with this recommendation. FNS will instruct the New York State agency to use the
NDL to identify disqualified participants noting that such identification is required of each state
agency in current regulation.

OIG Position
We accept FNS’ management decision on this recommendation.

Recommendation 15
Instruct the Texas State agency to cease distributing the national disqualified list to sponsors.

Agency Response
CACFP regulations require sponsors to have access to the NDL. FNS will issue guidance to
Texas and all state agencies on proper procedures for sponsors to access the NDL.

OIG Position
We accept FNS’ management decision on this recommendation.




22     AUDIT REPORT 27601-0012-SF
Scope and Methodology
In order to evaluate FNS’ implementation of our 1999 report’s recommendations, we
judgmentally selected the States of California, Texas, and New York because they (1) received
the largest total CACFP reimbursements, (2) had the highest average daily attendance, (3) served
the most meals, and (4) gave a nationwide perspective of the CACFP.

We reviewed two sponsors of centers and four sponsors of both homes and centers. One of the
six sponsors was selected based on a complaint received through OIG’s hotline. The remaining
sponsors were selected based on information obtained at the corresponding State and FNS
regional offices, such as claim amounts and location of the sponsor. In FY 2008, these sponsors
received almost $29 million in program funds. We conducted fieldwork from October 2008 to
January 2011.

In developing the issues in this report, we performed the following steps and procedures:

   ·   Reviewed all applicable laws, regulations, policies, procedures, and instructions to
       become familiar with CACFP.

   ·   Interviewed FNS’ national and regional office staff about the agency’s response to our
       prior recommendations. We also obtained and reviewed FNS’ management evaluations
       of States’ implementation of revised program regulations.

   ·   Interviewed State agency officials and reviewed State agency files to evaluate their
       implementation of revised program regulations.

   ·   Reviewed sponsor records that supported reimbursement claims, program spending, and
       overall CACFP administration. Records reviewed included sponsors’ accounting records
       and ledgers, receipts, cancelled checks, bank statements, and training and monitoring
       documents.

   ·   Interviewed sponsor officials and staff for information about operations.

   ·   Judgmentally selected homes and centers, based on reimbursements and general
       proximity, operating under the sponsors and conducted site visits to examine records,
       interview personnel, and observe operations.

For two of the sample sponsors (sponsors A and B), we expanded our review to examine the
sponsors’ use of program funds in more detail, due to indications that the sponsors may have
improperly spent the funds.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.


                                                            AUDIT REPORT 27601-0012-SF         23
Abbreviations

CACFP........................ Child and Adult Care Food Program

FNS ............................. Food and Nutrition Service

NDL ............................ National Disqualified List
OGC ............................ Office of the General Counsel
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
USDA.......................... United States Department of Agriculture




24      AUDIT REPORT 27601-0012-SF
Exhibit A: Summary of Monetary Results

    Finding        Recommendation
    Number             Number              Description        Amount             Category

                                                                            Questioned Costs
                                           Sponsor A’s
                                                                            and Loans,
        1                   3               misuse of        $2,029,691
                                                                            Recovery
                                          program funds
                                                                            Recommended

                                                                            Questioned Costs
                                           Sponsor B’s
                                                                            and Loans,
        1                   4               misuse of        $ 456,942
                                                                            Recovery
                                          program funds
                                                                            Recommended

    TOTAL                                                    $2,486,633


The table above identifies $2,029,691 in questioned costs for sponsor A and $456,942 for
sponsor B.




                                                          AUDIT REPORT 27601-0012-SF        25
Exhibit B: Sites Visited


                  Organization/Entity                                     Location

 Food and Nutrition Service
        National Office                                   Alexandria, Virginia
        Western Regional Office                           San Francisco, California
        Southwest Regional Office                         Dallas, Texas
        Northeast Regional Office                         Boston, Massachusetts

 State Agencies
        California Department of Education                Sacramento, California
        Texas Department of Agriculture                   Austin, Texas
        New York Department of Health                     Albany, New York

 Institutions
        Sponsor A                                         New York
        Sponsor B                                         Texas
        Sponsor C                                         Texas
        Sponsor D                                         California
        Sponsor E                                         New York
        Sponsor F                                         New York

 Facilities
        40 Day Care Homes                                 San Diego, California area
        28 Day Care Centers                               Dallas/Fort Worth, Texas area
        30 Day Care Homes                                 Dallas/Fort Worth, Texas area
        8 Day Care Centers                                New York City, New York area


The table above lists the FNS offices, sponsors, and day care homes and centers we visited in
New York, California, and Texas.




26     AUDIT REPORT 27601-0012-SF
Exhibit C: Summary of Questioned Costs for Sponsor A

                                                                    Sub-
                                                                    Category   Category
 Type of Questioned Cost                                            Total      Total
 Paid general expenses for the director’s for-profit corporation.   $723,000
 Purchase and install                                 at the for-
                                                                    $545,683
 profit corporation’s schools.
 Purchase of property and first month’s mortgage payment.           $220,000
 Purchase of inventory for the director’s            business
                                                                    $156,800
 venture
 Paid the director’s personal income taxes                          $110,000   $1,755,483
 Transactions conducted with a business owned by the
                                                                    $253,720   $ 253,720
 director’s
 Party for both program and non-program school children.            $ 20,488   $   20,488
 TOTAL                                                                         $2,029,691

The table above represents questioned costs for Sponsor A.




                                                             AUDIT REPORT 27601-0012-SF     27
Exhibit D: Summary of Questioned Costs for Sponsor B

                                                                   Sub-
                                                                 Category          Category
                       Type of Questioned Cost                    Total             Total
 Personal                                                    $ 84,555

 Non-program activities                                      $152,743

 Leasehold improvements                                      $ 64,288

 Attorney retainer                                           $ 15,050

 IRS penalties                                               $    3,908

 Bank insufficient fund fees                                 $     513        $321,057

 Promotional activities                                      $ 25,860

 Employee Retreat                                            $ 11,040

 Meals (non-travel related)                                  $    9,232

 Miscellaneous                                               $    8,961       $ 55,093

 Related-party transactions                                  $ 32,857

 Bank stop payment fees                                      $     690        $ 33,547

 Miscellaneous (e.g., payments to hotels and restaurants)    $ 47,244         $ 47,244

     TOTAL                                                                    $456,94228


The table above shows the types and amounts of questionable costs for sponsor B.




28
     $1difference due to rounding.

28         AUDIT REPORT 27601-0012-SF
Exhibit E: Sponsor A’s Overstated Meal Claims

                                                                     (C)             (D)
                                                        (B)         Meals      Percentage of
                                     (A)               Meals     Over/(Under)  Over/(Under)
                                    Meals           Claimed for    Claimed      Statement30
      Day Care Centers             Served29        Reimbursement  (B less A)  (C divided by A)
 January 2009
 1                                11,644             13,696                 2,052                     18%
 2                                10,395             11,983                 1,588                     15%
 3                                  8,592             8,912                   320                      4%
 4                                10,745             14,481                 3,736                     35%
 5                                  6,612            11,484                 4,872                     74%
 6                                  5,892             5,935                    43                       1%
 7                                  7,843             7,930                    87                       1%
 8                                    684                798                  114                     17%
 Subtotals – January              62,407             75,219               12,812                      21%
 2009
 March 2009
 1                                13,237             15,370                 2,133                     16%
 2                                12,462             12,876                   414                       3%
 3                                  9,792             9,871                    79                       1%
 4                                13,539             15,391                 1,852                     14%
 5                                  8,372            13,289                 4,917                     59%
 6                                  6,834             6,616                 (218)                      (3%)
 7                                  8,936             8,912                   (24)                     0%
 8                                    876                876                     0                     0%
 Subtotals – March                74,048             83,201                 9,153                     12%
 2009
 TOTALS                          136,455           158,420                21,965                      16%
The table represents the amount of meals claimed in excess as compared to the amount that was
actually served on site.

29
     Per meal count records maintained by the individual day care centers.
30
     This figure represents the number of meals over- or under-claimed as a percentage of the number of meals served.


                                                                         AUDIT REPORT 27601-0012-SF              29
Agency’s Response




                  USDA’S
       FOOD AND NUTRITION SERVICE’S
         RESPONSE TO AUDIT REPORT




30   AUDIT REPORT 27601-0012-SF
United States
Department of    DATE:          September 29, 2011
Agriculture
                 AUDIT
Food and
Nutrition        NUMBER:        27601-12-SF
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          /s/ <Jeffrey J. Tribiano> (for): Audrey Rowe
Alexandria, VA
22302-1500                      Administrator
                                Food and Nutrition Service

                 SUBJECT:       Review of Management Controls for the Child and Adult Care Food
                                Program


                 This letter responds to the official draft audit report number 2601-12-SF, Review of
                 Management Controls for the Child and Adult Care Food Program. Specifically, the Food
                 and Nutrition Service (FNS) is responding to the fifteen recommendations within the
                 report. FNS agrees with OIG’s objectives to strengthen internal controls of the program
                 through “aggressive, clear, and consistent guidance and oversight” and to ensure that State
                 agencies, CACFP institutions (sponsoring organizations and independent centers) and
                 facilities (family day care homes and sponsored centers) are acting responsibly and within
                 the parameters of the CACFP requirements.

                 FNS supports implementation of effective management controls to address identified
                 concerns within the report. OIG identified several opportunities for improved controls:
                 preventing conflicts of interest in sponsors’ governing boards; identifying program
                 participants who claim reimbursement for meals they did not serve (overclaiming); and
                 improving procedures related to the National Disqualified List (NDL). In addition, OIG
                 recommends that FNS take action to address several specific issues identified in the States
                 reviewed. FNS actions planned along with the proposed dates of implementation are
                 specified in the responses to the recommendations below.

                 Recommendation 1

                 Require State agencies, during reviews, to verify a selected month (or more as warranted)
                 of a sponsor’s CACFP bank account activity to documents adequate to support that the
                 transactions meet program requirements.

                 FNS Response

                 FNS concurs with this recommendation. A review of bank statements was a standard part
                 of the Child Care Assessment Project (CCAP) data collection and revealed a number of
“questionable costs” that would otherwise have gone unnoticed if the CCAP data collectors
had only looked at receipts. Procedures for conducting “bank statement verifications” will be
addressed in guidance by December 2011.

Estimated Completion Date: May 31, 2012


Recommendation 2

Instruct State agencies to require center sponsors to report, no less often than annually, their
actual expenditures of program funds and the amount of meal reimbursement funds retained
from centers (if any) for administrative costs.

FNS Response

FNS concurs with this recommendation. Although FNS evaluates the State agency’s written
policies or procedures for tracking sponsors’ administrative expenses on a year-to-date basis,
FNS will propose a report of aggregate year-to-date administrative expenses for center
sponsors, no less frequently than annually. This report will be addressed in guidance.

Estimated Completion Date: October 31, 2012


Recommendation 3

Consult with OIG-Investigations to determine the appropriate action to be taken to recoup the
$2,029,691 in program funds misused by sponsor A. Require the State agency to ensure
sponsor A has accounted for all program funds and has recovered any that are not accounted
for or were spent improperly.

FNS Response

FNS concurs with this recommendation and agrees with recovering any misused funds as
appropriate according to federal law and CACFP regulations. FNS will confer with OIG
prior to determining the appropriate action to take.

Estimated Completion Date: October 31, 2012


Recommendation 4

Consult with OIG-Investigations to determine the appropriate action to be taken to recoup the
$456,942 in program funds misused by sponsor B.




                                                                                                   2
FNS Response

FNS concurs with this recommendation. FNS agrees with recovering any misused funds as
appropriate according to federal law and CACFP regulations. FNS will confer with OIG
prior to determining the appropriate action to take.

Estimated Completion Date: October 31, 2012


Recommendation 5

Instruct the Texas State agency to determine the portion of vehicle costs charged by
sponsor C to the program (including lease, fuel, insurance, etc.) that are non-program related,
and collect this amount back from the State agency.

FNS Response

FNS concurs with this recommendation. FNS will direct the Texas State agency to recover
any unallowable costs as appropriate according to federal law and CACFP regulations.

Estimated Completion Date: December 31, 2011


Recommendation 6

Require sponsors’ boards to be composed of a majority of members of the community who
are not financially interested in its activities, or related to its personnel or to each other; and
that board members recuse themselves from votes on decisions relating to their own
compensation and that of immediate family members and financially related parties.

FNS Response

FNS concurs with this recommendation. FNS agrees that the independence of sponsor
boards is important to the integrity of the Program. FNS’s Management Improvement
Guidance currently requires sponsor boards to be composed of a majority of members of the
community who are not financially interested in its activities, or related to its personnel or to
each other. Further, the CACFP Integrity Rule [7 CFR Part 226.2], issued during the course
of this audit (June 13, 2011) adds a new definition of “independent governing board of
directors” which requires the board to meet regularly and to have the authority to hire and
fire the institution’s executive director. In the development of this final rule FNS conducted
extensive research of States’ specific statutory requirements regarding private nonprofit
organizations’ governing boards of directors, and determined that this definition of board
independence is the best approach to providing State agencies with more specific authority to
assess the independence of sponsor boards.




                                                                                                      3
The issuance of this new rule will give FNS the opportunity to provide additional training on
this issue and focus State agency attention on sponsor compliance. Additionally, FNS will
continue to offer technical assistance on board independence and address issues as they arise.

Completion Date: June 13, 2011


Recommendation 7

Require sponsors to sign an annual disclosure of potential conflicts of interest, including
specific identification of any dealings with “less-than-arms-length” entities and any
relationships between officers, board members, and employees. Language in the disclosure
form should provide for appropriate remedies in the event a sponsor submits a false
statement.

FNS Response

FNS concurs with this recommendation. FNS will require institutions to add the disclosure
and certification as an “annual submission” (refer to Healthy Hunger-Free Kids Act of 2010)
implementation memo CACFP-19-2011 on “CACFP Applications,” issued 4/8/11) included
in a proposed regulation. The proposed regulation will also specify that submission of a false
statement will be considered a serious deficiency subject to approved corrective action or
termination from participation in the program.

Estimated Completion Date: January 31, 2012


Recommendation 8

Develop standardized procedures for conducting reconciliation reviews, which (1) clearly
define the records to be reconciled, (2) describe follow-up action to be taken when
discrepancies are noted, and (3) describe appropriate corrective actions to be taken for
deficiencies that cannot be reconciled or explained.

FNS Response

FNS concurs with this recommendation. FNS will issue additional guidance to include
standard procedures for reconciliation reviews, specific effective corrective actions to
identify and resolve reconciliation issues, and policy clarification on the disallowance of
ineligible meals. This guidance will be issued following the analysis of the results of in-
depth reviews conducted of State agency CACFP operations conducted in FY2010 and
FY2011, which assessed the degree to which State agencies have effective policies and
procedures in place for the proper implementation of the five-day reconciliation requirement.

Estimated Completion Date: December 31, 2012




                                                                                              4
Recommendation 9

Develop submission forms for State agencies with edit checks requiring entries to be
complete.

FNS Response

A policy memo containing required National Disqualified List (NDL) submission forms was
issued in December 2007 to specifically address information required for placement on, or
removal from, the NDL. Although electronic edit checks are not able to be added to the
current form, they will be added when the system is revised to incorporate electronic data
entry by State agencies. FNS plans to release a web-based NDL database to State agencies
by the end of FY 2012. In addition, FNS will issue a policy memo clarifying information
required for placement on or removal from the NDL in FY 2012.

Estimated Completion Date: March 31, 2012

Recommendation 10

Obtain an opinion from the Office of General Counsel (OGC) about whether birth dates can
be distributed to State agencies as part of the NDL. If OGC determines they can, distribute
the list with birth dates.

FNS Response

FNS concurs with this recommendation. FNS will pursue obtaining an opinion from OGC
about whether or not birth dates (which are considered to be personally identifiable
information) can be distributed to State agencies as part of the NDL. If OGC determines it to
be allowable, FNS will enable State agency staff to access the list with birth dates included.

Estimated Completion Date: March 31, 2012


Recommendation 11

Distribute specific and standardized requirements to State agencies about how to use the
national disqualified list (what data elements should be compared, when to consider a match
to have occurred, etc.).

FNS Response

FNS concurs with this recommendation. FNS will distribute additional guidance on how to
use the NDL to ensure that disqualified institutions and individuals are precluded from
CACFP participation. FNS is currently updating a previous policy memo that will further
clarify information required for placement on or removal from the NDL to be issued in FY
2012.




                                                                                              5
Estimated Completion Date: March 31, 2012


Recommendation 12

Require that program application materials and NDL submittals include (1) full legal names
and (2) any names formerly used.

FNS Response

FNS concurs with this recommendation. FNS will include in the NDL guidance the
requirement that specifies NDL submittals include the full legal names and any names
formerly used of all involved principals.

Estimated Completion Date: December 31, 2011


Recommendation 13

Develop and implement an automated system that includes the following features: (1)
availability to both State agency and sponsor personnel having a legitimate need for access to
the system, (2) timely availability of data in the system, (3) immediate feedback on results to
users, (4) controls to ensure the completeness and accuracy of data, and (5) the proper
safeguarding of personally identifiable information, in accordance with the Privacy Act and
other applicable requirements.


FNS Response

FNS concurs with this recommendation. As a long standing objective of FNS, the process to
redesign and web-enable the NDL database and allow for system edits is underway. This
will allow State agencies to access and enter data in a timely manner and the system edits
will aid in ensuring more complete and accurate data. State agencies will be able to directly
submit data for immediate verification of potential matches. Access will be made available
to sponsoring organizations as required. In addition, FNS will develop standard operating
procedures to manage the NDL at the federal level upon implementation of the web-based
NDL system. The web-based NDL system is scheduled to be released during the fourth
quarter of 2012.

Estimated Completion Date: September 30, 2012




                                                                                              6
Recommendation 14

Instruct the New York State agency to use the NDL to identify disqualified participants.

FNS Response

FNS concurs with this recommendation. FNS will instruct the New York State agency to use
the NDL to identify disqualified participants noting that such identification is required of
each state agency in current regulation.

Estimated Completion Date: December 31, 2011


Recommendation 15

Instruct the Texas State agency to cease distributing the national disqualified list to sponsors.

FNS Response

CACFP regulations require sponsors to have access to the NDL. FNS will issue guidance to
Texas and all state agencies on proper procedures for sponsors to access the NDL.

Estimated Completion Date: March 31, 2012




                                                                                                7
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
